                                                                        Issue Date
                                                                        March 3, 2011
                                                                        
                                                                        Audit Report Number
                                                                        2011-BO1006




TO:               Donna J. Ayala, Director, Office of Public Housing, Boston Hub, 1APH



FROM:
                  John A. Dvorak, Regional Inspector General for Audit, Boston Region, 1AGA


SUBJECT: The New Bedford Housing Authority, New Bedford, MA, Generally
         Administered Its Public Housing Capital Fund Stimulus Formula and
         Competitive Grants( Recovery Act Funded) in Accordance With Applicable
         Requirements


                                              HIGHLIGHTS

    What We Audited and Why


                    We audited the New Bedford Housing Authority’s (Authority) $9.9 million of the
                    Public Housing Capital Fund Stimulus Formula and Competitive Grants (Recovery
                    Act Funded). 1 Our objective was to determine whether the Authority obligated and
                    disbursed capital funds received under the Recovery Act according to the
                    requirements of the act and applicable U.S. Department of Housing and Urban
                    Development (HUD) rules and regulations.


    What We Found




1
    $4.9 million formula and $5 million competitive
           The Authority generally administered its grants according to Recovery Act
           requirements and applicable HUD rules and regulations.

What We Recommend


           This report does not contain recommendations and no further action is necessary
           with respect to our report.
           .


Auditee’s Response


           We provided the Authority a draft report on March 1, 2011, and because it was a
           no finding report the Authority did not request an exit conference. The Authority
           did not provide formal written comments because the report contained no
           recommendations. It agreed with our conclusion in the report.




                                           2
                           TABLE OF CONTENTS

Background and Objective                                                         4

Results of Audit
    The Authority Generally Administered Grant Funds According to Requirements   5

Scope and Methodology                                                            9

Internal Controls                                                                10




                                           3
                         BACKGROUND AND OBJECTIVES

The New Bedford Housing Authority (Authority) is a governmental entity established under
Massachusetts State law 121B, section 3, with a mission to develop and manage affordable
housing for the residents of New Bedford, MA. Five commissioners govern the Authority. Four
are appointed by the mayor of New Bedford, and one is appointed by the governor of
Massachusetts. The board delegates to the executive director direct responsibility for carrying
out policies established by the commissioners; hiring, training, and supervising the Authority’s
staff; and managing day-to-day operations in compliance with Federal and State laws and
program directives.

On February 17, 2009, President Obama signed the American Recovery and Reinvestment Act
of 2009 (Recovery Act), which included $4 billion in capital funds to carry out activities of
public housing agencies, as authorized under Section 9 of the United States Housing Act of
1937. The Recovery Act required that $3 billion of these funds be distributed as Public Housing
Capital Fund formula grants and the remainder be distributed through a competitive grant
process.

As of December 31, 2010, there were 1,646 Federal public housing units under the Authority’s
annual contributions contract.2 The Authority received $9.9 million3 in Public Housing Capital
Fund formula and competitive grants (Recovery Act Funded) during the period March 18
through September 28, 2009.

The Recovery Act imposed reporting requirements and obligation and expenditure requirements
that were more stringent than those imposed on the Authority under its ongoing Public Housing
Capital Fund program grants. Under these requirements, the Authority agreed to obligate 100
percent of its formula grant funds by March 17, 2010, and expend 100 percent of the grant funds
by March 17, 2012. Transparency and accountability are priorities for funding and
implementing the Act.

The Authority received four ARRA Capital Competitive Grant Funds.

MA00780000109e for $980,000 = Elderly and Disabled > Federalization
MA00700005009e for $1,600,000 = Elderly and Disabled > Shawmut Village HCP
MA00700003009R for $986,406 = Energy grant > Westlawn
MA00700001009R for $1,501,037 = Energy grant > Bay Village

One of the Authority’s competitive Recovery Act grants (Federalization) is enabling the
Authority to convert 104 Massachusetts State public housing units to Federal subsidized housing
units, including the conversion of 7 units to meet handicapped accessibility requirements.

2
 As of December 31, 2010, the Authority administered 1,646 Federal public housing units at 26 sites and was
federalizing 104 State units.
3
 The Authority received $9.9 million in Recovery Act funding, $4.9 million in formula and $5 million in
competitive grants.


                                                        4
Our overall objective was to determine whether the Authority obligated and disbursed capital
funds (formula and competitive) received under the Recovery Act in accordance with applicable
U.S. Department of Housing and Urban Development (HUD) rules and regulations. Our
specific objectives were to determine whether the Authority (1) obligated its grant (formula and
competitive) funds for eligible projects in a timely manner, (2) complied with applicable
procurement requirements, and (3) properly reported its Recovery Act activities.




                                               5
                                 RESULTS OF AUDIT

The Authority Generally Administered Grant Funds According to
Requirements
The Authority generally administered its grant funds in accordance with the requirements of the
Recovery Act and HUD rules and regulations. It used grant funds for eligible activities
identified in either its annual or 5-year capital plan, obligated grant (formula and competitive)
funds within the established deadlines, received and disbursed grant funds in a timely manner,
complied with procurement requirements, and properly reported its Recovery Act activities in
accordance with guidance issued by the Office of Management and Budget (OMB).




 The Authority Used Grant
 Funds for Eligible Activities


               The Authority selected and funded activities for its capital fund program from its
               annual plan and 5-year capital plan. Under the Recovery Act, HUD’s Office of
               Public and Indian Housing (PIH) issued Notices PIH 2009-12 and PIH 2010-34,
               which required the Authority to use grant funds for activities identified in either its
               annual or 5-year capital plan. The Authority’s selected activities were eligible to be
               funded with its Recovery Act grants.

               The Authority was required to obligate 100 percent of its formula grant by March
               17, 2010, and competitive grants by September, 2010. It obligated 100 percent of its
               Recovery Act grants by the required dates.

               The Recovery Act and HUD Notice PIH 2009-12 required the Authority to expend
               at least 60 percent of the grants by March 17, 2011. The Authority had expended
               $765,945 or 7 percent of its competitive grants as of December 31, 2010, and
               appeared to be on track to meet the 60 percent expenditure requirement and expend
               100 percent of its Recovery Act formula grant as required.

               The Authority drew down grant funds from HUD’s automated Line of Credit
               Control System when the payments were due. It also maintained adequate
               documentation to support disbursements, such as invoices and approved requests for
               periodic partial payments.




                                                  6
The Authority Complied With
Applicable HUD Procurement
Requirements


           The Authority followed HUD’s procurement regulations to ensure the success of
           its Public Housing Capital Fund Recovery Act program. It amended its
           procurement policy, and the policy was approved by its board of commissioners
           to ensure that it complied with the requirements of Notice PIH-2009-12. The
           Authority received an adequate number of bids to ensure that it competitively
           awarded Recovery Act contracts as required by 24 CFR (Code of Federal
           Regulations) 85.36 and HUD Handbook 7460.8, REV-2. All Recovery Act grant
           change orders had the appropriate approvals and documentation to support the
           reasons for the changes. In addition, based on our site visit and visual inspection
           of completed units, we took no exceptions to the Authority’s progress to date.


The Authority’s Federal
Reporting Met Recovery Act
Requirements

           The Authority complied with all reporting requirements by the required deadlines.
           It complied with and properly reported its obligations, expenditures, and number
           of jobs created in accordance with guidance issued by OMB.

           Two specific provisions in the Recovery Act require quarterly reporting on the
           part of the Authority.  This information must be reported to FederalReporting.gov,
           a system created and managed by OMB and the Recovery Accountability and
           Transparency Board.  Section 1512 requires recipients and subrecipents to report
           on the nature of projects undertaken with Recovery Act funds and the number of
           jobs created and retained. Section 1609 requires agencies to report on the status
           of compliance with the National Environmental Policy Act (NEPA) for all
           Recovery Act-funded projects and activities.

           To provide this information to the Council on Environmental Quality, HUD
           requires Recovery Act grantees to complete their environmental reviews in
           accordance with HUD’s environmental regulations at 24 CFR Part 58 and enter
           NEPA compliance information into the Recovery Act Management and
           Performance System. The Authority complied with these specific requirements.




                                            7
Conclusions


              The Authority generally administered its Recovery Act grants according to
              requirements and applicable HUD rules and regulations. Specifically, the
              Authority effectively and efficiently administered its formula and competitive
              Recovery Act programs. Also, its financial and operational, management, and
              procurement and reporting controls were generally adequate to ensure that (1) all
              formula and competitive grant funds were obligated in a timely manner, (2) it
              expended funds within program deadlines, (3) procurement activity was
              transparent, and (4) it complied with all reporting requirements. Therefore, no
              reportable deficiencies were identified.


Recommendations



              This report does not contain any recommendations, and no further action is
              needed with respect to this report.




                                               8
                        SCOPE AND METHODOLOGY

We conducted the audit from December 2010 through February 2011. Our fieldwork was
conducted at the Authority’s main office located at 134 South Second Street, New Bedford, MA,
and its modernization office located at 725 Pleasant Street, New Bedford, MA. Our audit
covered the period March 2009 through November 2010 and was extended when necessary to
meet our objectives. To accomplish our audit objectives, we

      Interviewed the Authority’s executive director, human resources manager, comptroller,
       modernization accountant, and director of modernization to determine policies and
       procedures to be tested;

      Reviewed the Recovery Act and applicable HUD rules, regulations, and guidance;

      Reviewed and tested the Authority’s management, accounting, and computer controls
       over Recovery Act funding to determine whether the Authority had controls in place to
       safeguard its assets;

      Reviewed policies and procedues related to procurement, monitoring/reporting of grant
       funds, expenditures, and disbursements to determine data reliability;

      Reviewed the Authority’s fical years 2008 and 2009 audited financial statements as part
       of our testing for control weaknesses;

      Conducted interviews with officials for the period March through December 2010 and
       obtained disbursement data related to Recovery Act-funded capital projects to determine
       any irregular activity;

      Reviewed and tested relevant monitoring/reporting records, financial records, and
       procurement records to assess the Authority’s controls; and

      Conducted onsite reviews of work items completed or to be completed by the Authority.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                               9
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

      Effectiveness and efficiency of operations,
      Reliability of financial reporting, and
      Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls
               We determined that the following internal controls were relevant to our audit
               objectives:

                     Management controls over financial and operational processes;
                     Controls over expenditures to ensure that they are eligible, necessary, and
                      reasonable; and
                     Controls over procurements.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.


 Significant Deficiency


                We evaluated internal controls related to the audit objective in accordance with
                generally accepted government auditing standards. Our evaluation of internal
                controls was not designed to provide assurance regarding the effectiveness of the
                internal control structure as a whole. Accordingly, we do not express an opinion on
                the effectiveness of the Authority’s internal control.


                                                 10
